FILED: February 7, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2037
(3:18-cv-01874-PJG)
CLARENCE B. JENKINS, JR.
Plaintiff - Appellant
v.

SOUTH CAROLINA DEPARTMENT OF EMPLOYMENT WORKFORCE;
SOUTH CAROLINA BUDGET AND CONTROL BOARD; OFFICE OF
SOUTH CAROLINA GOVERNOR
Defendants - Appellees

ORDER
For reasons appearing to this court, this case is placed in abeyance pending a
decision by this court in Bing y. Brivo Sys., LLC, No. 19-1220, orally argued
December 11, 2019.
For the Court-By Direction
/s'/ Patricia S. Connor. Clerk

FILED: August 10, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2037
(3:18-cv-Ol 874-PJG)
CLARENCE B. JENKINS, JR.
Plaintiff - Appellant
v.

SOUTH CAROLINA DEPARTMENT OF EMPLOYMENT WORKFORCE;
SOUTH CAROLINA BUDGET AND CONTROL BOARD; OFFICE OF
SOUTH CAROLINA GOVERNOR
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

A

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2037
CLARENCE B. JENKINS, JR.,
Plaintiff - Appellant,
v.

SOUTH CAROLINA DEPARTMENT OF EMPLOYMENT WORKFORCE;
SOUTH CAROLINA BUDGET AND CONTROL BOARD; OFFICE OF SOUTH
CAROLINA GOVERNOR,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at
Columbia. Paige Jones Gossett, Magistrate Judge. (3:18-cv-01874-PJG)
Submitted: July 22, 2020

Decided: August 10, 2020

Before NIEMEYER and KEENAN, Circuit Judges, and TRAXLER, Senior Circuit Judge.

m
l
Affirmed by unpublished per curiam opinion.
Clarence B. Jenkins, Jr., Appellant Pro Se. Kenneth A. Davis, Tierney F. Dukes, BOYKIN
& DAVIS, LLC, Columbia, South Carolina, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

A

PER CURIAM:
Clarence B. Jenkins, Jr., appeals the magistrate judge’s order dismissing his
amended complaint alleging violations of Title VII of the Civil Rights Act of 1964,
42 U.S.C. §§ 2000e to 2000e-17 (2018). See 28 U.S.C. § 636(c) (2018). We have found
no evidence supporting Jenkins’ assertion that the magistrate judge and Defendants
engaged in misconduct during the proceedings. And because Jenkins’ opening informal
brief does not challenge the grounds for the magistrate judge’ s disposition, he has forfeited
appellate review of those rulings. See 4th Cir. R. 34(b); Jackson v. Lightsey, 775 F.3d 170,
177 (4th Cir. 2014) (“The informal brief is an important document; under Fourth Circuit
rules, our review is limited to issues preserved in that brief.”); United States v. Copeland,
707 F.3d 522, 530 (4th Cir. 2013) (“[Generally we will not consider issues raised for the
first time in a reply brief.”). Accordingly, we affirm the magistrate judge’s order.* We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
jp-

AFFIRMED

’ Although the magistrate judge dismissed some claims without prejudice, we have
jurisdiction to consider Jenkins’ appeal. See Bing v. Brivo Sys., LLC, 959 F.3d 605, 615
(4th Cir. 2020).
2
rt

3:18-cv-01874-PJG

Date Filed 01/04/19

Entry Number 71

Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
Clarence B. Jenkins, Jr.,

)
)
)
)
)
)

Plaintiff,
v.

S.C. Department of Employment Workforce;
S.C. Budget and Control Board; Office of
South Carolina Governor,
Defendants.

C/A No. 3:18-1874-PJG

ORDER

)
)
)
)
)
)

The plaintiff, Clarence B. Jenkins, Jr., a self-represented litigant, filed this employment
action against the above-captioned defendants. This matter is before the court pursuant to 28 U.S.C.
§ 636(c) and Local Civil Rule 73.02(B)(1) (D.S.C.) for final adjudication with the consent of the
parties.

Pending before the court is the motion of Defendant South Carolina Department of

Employment Workforce (“SCDEW”) to dismiss the Complaint. (ECF No. 31.)
Pursuant to Roseboro v. Garrison, 528 F.2d 309 (4th Cir. 1975), the court advised Jenkins
of the summary judgment and dismissal procedures and the possible consequences if he failed to
respond adequately to the defendant’s motion. (ECF No. 33.) Jenkins filed a response in opposition.
(ECF No. 44.) Having reviewed the parties ’ submissions and the applicable law, the court concludes
that Jenkins ’ s Title VII claim against SCDEW must be dismissed under Rule 12(b)(6) because it was
not timely filed.

Page 1 of 5

0>J6i

3:18-cv-01874-PJG

Date Filed 01/04/19

Entry Number 71

Page 2 of 5

BACKGROUND
Plaintiff indicates that between 2011 and 2018, he sought employment with SCDEW but he
consistently was rejected when he applied for jobs. (Am. Compl.,ECFNo. 11 at 5.) Plaintiff alleges
SCDEW incorrectly barred him from applying for further positions because it “falsely applied the
classification of nepotism to my master profile.” (Id.) Plaintiff further alleges, quoted verbatim,
(( < Barred

from applying’ and ‘does not meet minimum qualification’ applied by SCDEW and

willingly known by” the South Carolina Budget and Control Board1 and the Office of the South
Carolina Governor. (Id. at 6.) By previous order, the court construed Jenkins’s Complaint as
attempting to assert a claim pursuant to Title VII of the Civil Rights Act of 1964 (“Title VII”), 42
U.S.C. §§ 2000e, etseq., for failure to hire, retaliation, and “deprivation.” (Order at 1, ECF No. 17
at 1; Am. Compl., ECF No. 11 at 3-4; see also Order, ECF No. 35.)
DISCUSSION
A.

Applicable Standards
In its motion, the defendant seeks dismissal of Jenkins’s claims based on Federal Rules of

Civil Procedure 12(b)(1) and 12(b)(6). Dismissal under Federal Rule of Civil Procedure 12(b)(1)
examines whether the complaint fails to state facts upon which jurisdiction can be founded. It is the
plaintiff s burden to prove jurisdiction, and the court is to “regard the pleadings’ allegations as mere
evidence on the issue, and may consider evidence outside the pleadings without converting the
proceeding to one for summary judgment.” Richmond, Fredericksburg & Potomac R.R. Co. v.
United States, 945 F.2d 765, 768 (4th Cir. 1991).

1 The South Carolina Budget and Control Board is now the South Carolina Department of
Administration. See https://dc.statelibrary.sc,gov/handle/10827/29 (last visited on Jan. 4, 2019).
Page 2 of 5

(RXdf

3:18-cv-01874-PJG

Date Filed 01/04/19

Entry Number 71

Page 3 of 5

A motion to dismiss under Federal Rule of Civil Procedure 12(b)(6) examines the legal
sufficiency of the facts alleged on the face of the plaintiffs complaint. Edwards v. City of
Goldsboro, 178 F.3d 231, 243 (4th Cir. 1999). To survive a Rule 12(b)(6) motion, “[fjactual
allegations must be enough to raise a right to relief above the speculative level.” Bell Atl. Corn, v.
Twombly, 550 U.S. 544, 555 (2007). The “complaint must contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S.
662,678 (2009) (quoting Twombly, 550 U.S. at 570). A claim is facially plausible when the factual
content allows the court to reasonably infer that the defendant is liable for the misconduct alleged.
Id. When considering a motion to dismiss, the court must accept as true all of the factual allegations
contained in the complaint. Erickson v. Pardus, 551 U.S. 89, 94 (2007). The court “may also
consider documents attached to the complaint, see Fed. R. Civ. P. 10(c), as well as those attached
to the motion to dismiss, so long as they are integral to the complaint and authentic.” Philips v. Pitt
Cty. Mem’lHosp., 572 F.3d 176,180 (4th Cir. 2009) (citing Blankenship v. Manchin, 471 F.3d 523,
526 n.l (4th Cir. 2006)).
Further, while the federal court is charged with liberally construing a complaint filed by a pro
se litigant to allow the development of a potentially meritorious case, see, e.g., Erickson, 551 U.S.
89, the requirement of liberal construction does not mean that the court can ignore a clear failure in
the pleadings to allege facts which set forth a federal claim, nor can the court assume the existence
of a genuine issue of material fact where none exists. Weller v. Dep’t of Soc. Servs., 901 F.2d 387
(4th Cir. 1990).

Page 3 of 5

(Pjc

3:18-cv-01874-PJG

B.

Date Filed 01/04/19

Entry Number 71

Page 4 of 5

Procedural History
Before the parties consented to proceeding before a magistrate judge for final adjudication

of all matters, the assigned magistrate judge issued a Report and Recommendation determining that
any claims asserted against Defendants South Carolina Budget and Control Board and Office of
South Carolina Governor should be summarily dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii)
and (iii). The Report and the plaintiffs objections thereto were still pending before the assigned
district judge for consideration when he referred it to the assigned magistrate judge as a consent case
under § 636(c). For the reasons contained in the Report, the plaintiffs claims against those
defendants are hereby summarily dismissed. Plaintiffs objections are without merit and do not
warrant a different result.
C.

Timeliness of Remaining Claim (Title VII Against DEW)
After a charge is filed with the Equal Employment Opportunity Commission (“EEOC”), the

EEOC must “notify the person aggrieved and within ninety days after the giving of such notice a civil
action may be brought against the respondent.” 42 U.S.C. § 2000e-5(f)(l) (Title VII) (emphasis
added). The record reflects that Jenkins received his right-to-sue letter from the EEOC on December
12, 2014 and filed his Complaint on July 9, 2018—over three years later. (Am. Compl., ECF No.
11-1 at 5, Right-to-Sue Letter, ECF No. 11-1 at 14.) Accordingly, Jenkins’s claims are untimely.
See 42 U.S.C. § 2000e-5(f)(l).
The defendant incorrectly asserts that this deficiency deprives the court of jurisdiction. To
the contrary, the law is clear that the time requirements in Title VH are not jurisdictional, but are
subjectto waiver, estoppel, and equitable tolling. Zipes v. Trans World Airlines, Inc., 455 U.S. 385,
393 (1982) (holding that the timely filing of an administrative charge “is not a jurisdictional
Page 4 of 5

(P:roi

3:18-cv-01874-PJG

Date Filed 01/04/19

Entry Number 71

Page 5 of 5

prerequisite to suit in federal court, but a requirement that, like a statute of limitations, is subject to
waiver, estoppel, and equitable tolling”); Crabill v. Charlotte Mecklenburg Bd. of Educ., 423 F.
App’x 314, 321 (4th Cir. 2011) (noting that the “90-day filing requirement is ‘not a jurisdictional
prerequisite to suit in federal court, but a requirement that, like a statute of limitations, is subject to
waiver, estoppel, and equitable tolling’ ”) (quoting Laberv. Harvey, 438 F.3d 404,429 n.25 (4th Cir.
2006)). Here, however, Jenkins has presented no argument to justify his failure to meet the statutory
deadline. Rather, he addresses in his response only the defendant’s alternative argument that his
claim is barred by res judicata because it could have been brought in a prior state action. (See
generally PI. ’s Resp. Opp’n Mot. Dismiss, ECF No. 44.)
Accordingly, it is
ORDERED that the plaintiff s claims against Defendant South Carolina Budget and Control
Board and Defendant Office of South Carolina Governor are hereby summarily dismissed without
prejudice and without service of process. It is further
ORDERED that the plaintiffs Title VII claim against the Department of Employment and
Workforce is hereby dismissed for failure to state a claim upon which relief can be granted. It is
further
ORDERED that all other pending motions are terminated from the docket as moot.
IT IS SO ORDERED.

Paige J.TSossett1'
UNITED STATES MAGISTRATE JUDGE
January 4, 2019
Columbia, South Carolina
Page 5 of 5

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
Clarence B. Jenkins, Jr.,

C/A No. 3:18-1874-TLW-PJG

)
)
)
)
)
)

Plaintiff,
v.

South Carolina Department of Employment and )
Workforce; South Carolina Budget and Control )
Board; Office of the South Carolina Governor, )

REPORT AND RECOMMENDATION

)
)
)

Defendants.

The plaintiff, Clarence B. Jenkins, Jr., proceedingpro se, brings this action for employment
discrimination. The Amended Complaint has been filed in forma pauperis pursuant to 28 U.S.C.
§ 1915. This matter is before the court pursuant to 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2) (D.S.C.). Having reviewed the Amended Complaint in accordance with applicable law,
the court concludes the South Carolina Budget and Control Board and the Office of the South
Carolina Governor should be summarily dismissed without prejudice and issuance and service of
process.
I.

Factual and Procedural Background
Plaintiff indicates that between 2011 and 2018, he sought employment with the South

Carolina Department of Employment and Workforce (“SCDEW”) but he consistently was rejected
when he applied for jobs. (Compl., ECF No. 11 at 5.) Plaintiff alleges SCDEW incorrectly barred
him from applying for further positions because it “falsely applied the classification of nepotism to
1 In a contemporaneous order, the court authorized the issuance and service ofprocess against
the South Carolina Department of Employment and Workforce.
Page 1 of 6

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 2 of 6

my master profile.” (Id.) Plaintiff further alleges, quoted verbatim, “ ‘Barred from applying’ and
‘does not meet minimum qualification’ applied by SCDEW and willingly known by” the South
Carolina Budget and Control Board2 and the Office of the South Carolina Governor. (Id at 6.)
Plaintiff indicates he brings this action pursuant to Title VII of the Civil Rights Act of 1964 (“Title
VE”), 42 U.S.C. §§ 2000e, et seq., for failure to hire, retaliation, and “deprivation.” (Id at 3-4.)
Plaintiff also indicates he brings a claim pursuant to 42 U.S.C. § 1983. (Id at 4.) Plaintiff seeks
damages for his injuries. (Id at 6.)
II.

Discussion
A.

Standard of Review

Under established local procedure in this judicial district, a careful review has been made of
the pro se Amended Complaint. The Amended Complaint has been filed pursuant to 28 U.S.C.
§1915, which permits an indigent litigant to commence an action in federal court without prepaying
the administrative costs ofproceeding with the lawsuit. This statute allows a district court to dismiss
the case upon a finding that the action “is frivolous or malicious,” “fails to state a claim on which
relief may be granted,” or “seeks monetary relief against a defendant who is immune from such
relief.” 28 U.S.C. § 1915(e)(2)(B).
In order to state a claim upon which relief can be granted, the plaintiff must do more than
make mere conclusory statements. See Ashcroft v. Iqbal, 556 U.S. 662,678 (2009); Bell Atl. Corp.
v. Twombly, 550U.S. 544,555 (2007). Rather, the complaint must contain sufficient factual matter,
accepted as true, to state a claim that is plausible on its face. Iqbal, 556 U.S. at 678; Twombly, 550

2 The South Carolina Budget and Control Board is now the South Carolina Department of
Administration. See https://dc.statelibrary.sc.gov/handle/10827/29 (last visited on Aug. 14,2018).
Page 2 of 6

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 3 of 6

U.S. at 570. The reviewing court need only accept as true the complaint’s factual allegations, not
its legal conclusions. Iqbal, 556 U.S. at 678; Twombly, 550 U.S. at 555.
This court is required to liberally construe pro se complaints, which are held to a less
stringent standard than those drafted by attorneys. Erickson v. Pardus, 551 U.S. 89,94 (2007); King
v. Rubenstein, 825 F.3d 206, 214 (4th Cir. 2016). Nonetheless, the requirement of liberal
construction does not mean that the court can ignore a clear failure in the pleading to allege facts
which set forth a claim cognizable in a federal district court. See Weller v. Dep’tof Soc. Servs., 901
F.2d 387 (4th Cir. 1990); see also Iqbal, 556 U.S. at 684 (outlining pleading requirements under Rule
8 of the Federal Rules of Civil Procedure for “all civil actions”).
B.

Analysis

The court finds the South Carolina Budget and Control Board and the Office of the South
Carolina Governor should be summarily dismissed for Plaintiffs failure to state a claim upon which
relief can be granted pursuant to 28 U.S.C. § 1915(e)(2)(B)(ii). As to Plaintiffs Title VII claim,
Plaintiff fails to make any allegation that he worked for or sought work with the South Carolina
Budget and Control Board and the Office of the South Carolina Governor. Thus, he fails to plausibly
allege that either of these defendants committed acts that are prohibited by Title VII. See 42 U.S.C.
§§ 2000e-2, 2000e-3 (providing unlawful employment practices). At most, Plaintiff appears to
allege these defendants knew about SCDEW’s purported refusal to hire Plaintiff and incorrect
classification of him as an applicant. Accordingly, Plaintiffs Title VII claims against the South
Carolina Budget and Control Board and the Office of the South Carolina Governor should be
dismissed for failure to state a claim upon which relief can be granted.

Page 3 of 6

6>5i\

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 4 of 6

As to Plaintiffs claims pursuant to 42 U.S.C. § 1983, a legal action under § 1983 allows “a
party who has been deprived of a federal right under the color of state law to seek relief.” City of
Monterey v. Del Monte Dunes at Monterey, Ltd., 526 U.S. 687, 707 (1999). To state a claim under
§ 1983, a plaintiff must allege: (1) that a right secured by the Constitution or laws of the United
States was violated, and (2) that the alleged violation was committed by a person acting under the
color of state law. West v. Atkins, 487 U.S. 42, 48 (1988). But, because Plaintiff only seeks
damages in this action, (see Compl., ECF No. 11 at 6), the South Carolina Budget and Control Board
and the Office of the South Carolina Governor—offices ofthe State of South Carolina—are immune
from suit for any § 1983 claims. See Alden v. Maine. 527 U.S. 706.712-13 (1999): Seminole Tribe
of Fla, v. Florida. 517 U.S. 44, 54 (1996); Hans v. Louisiana, 134 U.S. 1 (1890). Such immunity
extends to arms of the state, including a state’s agencies, instrumentalities, and employees. See
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 101-02 (1984); see also Regents of the
Univ, of Cal, v. Doe, 519 U.S. 425, 429 (1997); Will v. Mich. Dep’t of State Police, 491 U.S. 58,
71(1989) (holding that neither a State nor its officials acting in their official capacities are “persons”
under § 1983).3 Therefore, to the extent Plaintiff even raises cognizable § 1983 claims against these

3 While sovereign immunity does not bar suit where a state has given consent to be sued, or
where Congress abrogates the sovereign immunity of a state, neither of those exceptions applies in
the instant case. Congress has not abrogated the states’ sovereign immunity under § 1983, see Quern
v. Jordan, 440 U. S. 332, 343 (1979), and South Carolina has not consented to suit in federal district
court. S.C. Code Ann. § 15-78-20(e). Also, states are not immune where a plaintiff seeks
prospective injunctive relief in § 1983 actions, see Ex parte Young, 209 U.S. 123 (1908) and
McBumey v. Cuccinelli, 616 F.3d 393, 399 (4th Cir. 2010), but Plaintiff does not seek injunctive
relief in this action.
Page 4 of 6

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 5 of 6

defendants,4 the claims should be summarily dismissed because the defendants would be immune
from any claim for damages. See 28 U.S.C. § 1915(e)(2)(B)(iii).
III.

Conclusion
Accordingly, the court recommends that the Amended Complaint be summarily dismissed

against the South Carolina Budget and Control Board and the Office of the South Carolina Governor
without prejudice and without issuance and service of process.

August 14, 2018
Columbia, South Carolina

Paige J. Gossett ^
UNITED STATES MAGISTRATE JUDGE

Plaintiff’s attention is directed to the important notice on the next page.

4 Notably, Plaintiff fails to make any allegation that the South Carolina Budget and Control
Board or the Office of the South Carolina Governor violated his constitutional rights.
Page 5 of 6

3:18-cv-01874-PJG

Date Filed 08/14/18

Entry Number 16

Page 6 of 6

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but instead
must ‘only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.’” Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310 (4th Cir. 2005)
(quoting Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ. P.
6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
901 Richland Street
Columbia, South Carolina 29201
Failure to timely file specific written objections to this Report and Recommendation
will result in waiver of the right to appeal from a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am. 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

Page 6 of 6

Additional material
from this filing is
available in the
Clerk's Office.

